Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




        PARTICIPANTS RATE
        THE JOBS PROGRAM




                     SEPTE~ER   1993
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretaty
of HHS of program, and management problems, and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions, or
civil money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION                     AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency,vulnerability, and effectiveness of departmental
programs. This report was prepared in the Dallas regional office under the direction of Ralph
Tunnel], Regional Inspector General and Chester B. Slaughter, Deputy Regional Inspector General.
Project Staft?

REGION                                                 HEADQUARTERS

Elsie A. Chaisson, Project Leader                      Ruth Folchman, Program Analyst

Michelle J. Adams, Program Analyst

Leah K Bostick, Program Analyst

Nancy J. Watts, Program Assistant


For additional copies of this report, please contact the Dallas Regional Office at (214) 767-3310.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




        PARTICIPANTS RATE
        THE JOBS PROGRAM
                   EXECUTIVE                       SUMMARY

PURPOSE

This report provides information about the experiences, opinions andattitudes of Job
@pofiunities and Basic Stills Tmining (JOBS) progmmpafiicipants.        Specifically, the
report contains information about participants’ (1) understanding of the program’s services
and requirements; (2) positive and negative experiences in the program; and (3)
suggestions for program improvement. This report reflects early experiences with the
JOBS program as seen from the unique perspective of the participants themselves.

BACKGROUND

The Family Support Act (P.L. 100-485) required all States to establish the Job
Opportunities and Basic Skills Training (JOBS) program to assure that needy families with
children obtain the education, training and employment that will help them avoid
long-term welfare dependency. To accomplish this, the JOBS program is intended to:
(1) encourage, assist and require applicants for and recipients of AFDC to fulfill their
responsibilities to support their children by preparing for, accepting, and retaining
employment; (2) provide individuals with the opportunity to acquire the education and the
skills necessary to qualify for employment; (3) provide necessary support services,
including transitional child care and medical assistance, so that individuals can participate
in JOBS and accept employment; (4) promote coordination of services at all levels of
government in order to make a wide range of services available, especially for individuals
at risk of long-term welfare dependency; and (5) emphasize accountability for both
participants and service providers. Where State resources permit, all AFDC recipients
living in a subdivision covered by a JOBS program and for whom the State IV-A agency
(i.e., welfare agency) has guaranteed child care (in accordance with the provisions of the
child care laws and regulations) shall be required to participate in JOBS unless the
recipient is exempt from participation.

Between October 1991 and February 1992, we completed a total of 232 telephone
interviews with participants who were located at five sites: Denver, Colorado;
Albuquerque, New Mexico; Florence, South Carolina; Philadelphia, Pennsylvania; and,
Janesville, Wisconsin. We interviewed 67 JOBS program completers, 98 currently active
participants and 67 dropouts.

FINDINGS

A MAJORITY OF PARTICIP~TS  SURVEYED                 GAVE HIGH RATINGS TO THE
OVERALL JOBS PROGRAM, ITS ACTWITIES                 AND SUPPORT SERVICES.

 �	    Almost three out of four respondents rated the overall JOBS program as good or
       very good.


                                               i
 �    Significantly, 84percent of respondents said they would recommend the program.

 �    Eighty -three percent ofrespondents believed the JOBS program would help them
      get off welfare.

 �    Eighty -two percent of respondents whohadcompleted     the program reported they
      were working at the time we interviewed them.

 �    About two-thirds of respondents rated the public assistance agency and its staff
      high for providing the support and services they needed to complete the program.

 �    Respondents graded high those JOBS program activities in which they participated,

 �    A majority of respondents who received support services gave them high marks.

NEVERTHELESS, A SIGNIFICANT NUMBER OF RESPONDENTS EXPERIENCED
PROBLEMS AND/OR VOICED COMPLAINTS THAT MERIT THE ATTENTION OF
PROGRAM MANAGERS.

      Imuficient Information. Some respondents said they were not told about or
      received insufficient explanations or information on the availability of specific
      program activities or services. For example, 46 percent of respondents said they
      were not told about transitional child care.

      Lack of Sumort Services. Ninety-eight respondents said there were certain services
      they needed but did not receive. For example, 47 of the 98 respondents reported
      they did not receive the child care they needed.

      Deficient Case Manager Services and Attitudes. Thirty-one percent of respondents
      noted problems with support and services provided by case managers. Some said
      case managers’ condescending/negative attitudes also discouraged them.

      Understanding Penalties. While most respondents knew about possible non-
      compliance penalties and benefit reductions, some did not understand. Twenty-two
      respondents had their AFDC and/or Food Stamps benefits reduced, 12 as a result
      of receiving student educational loans.

EIGHTY-SIX PERCENT OF RESPONDENTS                SlZ4RED   SPECIFIC     SUGGESTIONS
FOR IMPROVING THE JOBS PROGRAM.

 �    Emphasize education and training in order to achieve self-sufficiency.

 �    Improve support services such as child care and transportation.

 �	   Strengthen case managers’ performance of the orientation, service explanation, and
      assessment processes; and provide empathetic support to program participants.


                                            ii
                           TABLE          OF      CONTENTS




                                                                                                   PAGE


EXECUTIVE SUMMARY                . . . . . . . . . . . ...**********              �..**     *”””    ”””i

INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . ..0000*oo           SO””OOO””l

FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 0000 osco””          o””* 4


    Participants’   RatingofTheJOBS         Program       . . . . . . . . . . . . . . . . . . . . ““”d

    Problems Experienced By Participants            . . . . . . . . . . . . . . ...*..       �000008

    Participants’   Suggestion    sFo rImproving TheJOBS           Program         . . . . . . . . . . 12


APPENDICES


A: Profile of Survey Respondents           . . . . . . . . . . . . . . . . . . . . . . . . .o*oo       A-1


B: Illustrative Profiles    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .OOOSO.        B-l

                            INTRODUCTION

PURPOSE

This report provides information about the experiences, opinions, andattitudes of Job
@pofiunities and Basic Stills Tmining (JOBS) progmmpatiicipants.        Specifically, the
report contains information on participants’ (1) understanding of the program’s services
and requirements; (2) positive and negative experiences in the program; and (3)
suggestions for program improvement. This report reflects early experiences with the
JOBS program as seen from the unique perspective of the participants themselves.

BACKGROUND

The Family Support Act (P.L. 100-485) required all States to establish the Job
Opportunities and Basic Skills Training (JOBS) program to assure that needy families with
children obtain the education, training and employment that will help them avoid
long-term welfare dependency. To accomplish this, the JOBS program is intended to:
(1) encourage, assist and require applicants for and recipients of AFDC to fulffll their
responsibilities to support their children by preparing for, accepting, and retaining
employment; (2) provide individuals with the opportunity to acquire the education and the
skills necessary to qualify for employment; (3) provide necessary support services,
including transitional child care and medical assistance, so that individuals can participate
in JOBS and accept employment; (4) promote coordination of services at all levels of
government in order to make a wide range of services available, especially for individuals
at risk of long-term welfare dependency; and (5) emphasize accountability for both
participants and service providers.

Where State resources permit, all AFDC recipients living in a subdivision covered by a
JOBS program and for whom the State IV-A agency (i.e., welfare agency) has guaranteed
child care (in accordance with the provisions of the child care laws and regulations) shall
be required to participate in JOBS unless the recipient is exempt from participation.

Federal regulations provide that a State JOBS program u        include the following four
components: (1) educational activity (which shall include high school or high school
equivalency training; basic and remedial education that will provide a literacy level
equivalent to at least grade 8.9, and education in English proficiency; (2) job skills
training; (3) job readiness activities; and, (4) job development/job placement. States are
also required to include at least two of the following components: (1) on-the-job training,
(2) work supplementation, (3) community work experience, (4) group and individual job
search, or (5) additional education, as allowed by the State. Additionally, States are
required to guarantee child care, and provide transportation and other support services if
the State agency determines these services are necessary for an individual in the family to
accept employment, remain employed or to participate in an education or training
component.



                                              1

METHODOLOGY

The focus of this study was a survey of the experiences and perceptions of JOBS program
participants at selected sites in five States. Each site selected provided all of the optional
JOBS program components in addition to the mandatory components. Two sites were
non-urban and three sites were urban. We did not survey State or local JOBS program
administrators. We did, however, interview local office managers to obtain a broad
overview of program operations and to learn the terminology used to assist us to better
communicate with the respondents about the program.

In order to learn more about the JOBS program and participants’ attitudes about welfare,
we performed the following steps.

First, we reviewed the JOBS program laws, regulations, State plans, and current literature
pertaining to participant perspectives about JOBS and welfare programs in generai.

Second, we talked with JOBS program experts and others who had completed participant
perspectives studies.

Third, from the literature review and discussions with experts, we formulated issues for
inclusion in a structured interview guide which focused on qualitative information, and
was pretested at one site in Texas. The interview questions contained both closed and
open-ended questions. The open-ended questions allowed the participants to elabomte on
their experiences and opinions about the JOBS progmm.

Fourth, to maximize our learning from participants, we categorized participants in three
groups: (1) JOBS program completers, (2) currently active participants participating in a
JOBS component, and (3) dropouts (i.e., participants who dropped out before completing
the program). For this study we used the following definitions. Program Completers
include - (1) individuals who completed the JOBS program, are employed and are off
welfare; (2) individuals who completed the JOBS progmm, are employed but continue to
be on welfare because their wages are insufficient to make them ineligible for AFDC
benefits; and (3) individuals who completed the JOBS progmm but are not employed ­
e.g., have not been able to find work. Current Actives were individuals actively
participating in the JOBS program during the survey period. Dropouts were individuals
who attended at a minimum the orientation session, then dropped out of the progmm at a
subsequent stage.

We asked the State public assistance agencies to: (1) identify a site within our pre selected
area; (2) identify all current and former JOBS participants having actual experience with
the JOBS progmm in 1990 and 1991; and (3) stratify participants according to our broad
groups (completers, currently actives and dropouts) and generate a related list.

Our target sample was 300, 100 each of completers, current actives and dropouts. We
over-sampled to reach our target of 300. Thus, from each completed list the study team
randomly selected a sample of 30 to 40 individuals from each group in each site


                                               2
participating in the survey. See Appendix A for some general characteristics of survey
respondents.

In September and November 1991 we visited each of the five sites. We interviewed
JOBS program managers and conducted face-to-face interviews with two JOBS program
completers and two dropouts at each site. See Appendix B for illustrative profiles.

Between October 1991 and February 1992, we completed a total of 232 telephone
interviews in five sites: (1) Denver, Colorado; (2) Albuquerque, New Mexico, (3)
Florence, South Carolina; (4) Philadelphia, Pennsylvania; and (5) Janesville, Wisconsin.
We interviewed 67 completers, 98 currently active participants, and 67 dropouts. Eighty
percent of the respondents were mandatory participants and 20 percent were volunteers.

We found JOBS participants were articulate and interested in speaking out about their
experiences in the JOBS program.

Unless otherwise indicated, weighted averages, based on the number of respondents in
each site, were used to calculate percentages in report findings. Although we selected our
sample from the three categories of participants, we do not report responses by type of
category. However in our analysis, we did consider participant category to help in
understanding some responses. For example, we looked at categories of participants
reporting not receiving or knowing about transitional child care or medical services. Not
knowing about these services could have a greater impact on program completers than
currently active participants and dropouts.

We conducted our review in accordance with the Quality Staruiids     for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             3

                                     FINDINGS


A MAJORITY OF PARTICIP~TS   SURVEYED                     GAVE HIGH RATINGS TO THE
OVERALL JOBS PROGRi4M, ITS ACTIVITIES                    AND SUPPORT SERVICES.

Almost three out of every four respondents gave the JOBS program good marks.


We asked JOBS program participants to give their overall rating of the JOBS program.

Of the 232 respondents surveyed, 73 percent rated the JOBS program as good or very

good, as shown below. Another 19 percent rated it fair, with only eight percent assessing

the program as poor or very poor.



                     Participants’    Overall Ratings Of JOBS Program
                                           (Participants - 232)
               901

               80-

               70“
          m    60-
         .-c
         U
          c
          0    50-
          n
          a
         c?    4(-

               30
                                             19%
               20
                                                                  8%
               10

                0I
                     Good/Very Good         Fair       Poor/Vefy Poor
                                     Participants’ Ratings



Significantly, 84 percent of the respondents said they would recommend the program
to others.

Eighty-three   percent of respondents believed the JOBS program would help them get
off welfare.

Both mandatory and volunteer respondents frequently said they participated in the JOBS
program to obtain an education or training. Many viewed education and training as tools
to help them obtain employment paying above the minimum wage which, in turn, would
allow them to get off welfare. This was often expressed as a strong motivation to


                                                   4
participate in the program. When asked what would cause a person to stay on public
assistance after completing the JOBS program, 41 percent said low wages or no jobs in
the community.

Since mandatory participants do not have a choice regarding participating in JOBS, we
were interested in their attitudes about being required to participate. Many mandatory
respondents expressed positive attitudes about participating in the program. In fact, one
out of every two mandatory participants said they participated in the JOBS program, not
only because this was required, but to obtain an education, training, or to get a job.

Eighty-two percent of respondents    who had completed the JOBS program reported
they were working.

Very promising is the fact that, among respondents who had completed the program, 82
percent reported they were employed and were either entirely off AFDC (64 percent) or
receiving a reduced grant (18 percent) at the time we interviewed them.

About t we-thirds of respondents rated the public assistance agency and its staff
highly for providing the support and services they needed to complete the JOBS
program.

Sixty-two percent of the respondents rated the performance of the public assistance agency
and its staff as good or very good in helping them complete the program. Also, 68
percent gave good or very good ratings to the staff for arranging support services they
needed to complete JOBS activities, Sixty-nine percent of the respondents said they were
encouraged by their case manager who, in many instances, motivated them to enhance
their education or obtain employment.

Respondents graded high those JOBS program activities in which they participated.

The first stage activities of the JOBS program are orientation, assessment and
employability planning. Generally, almost all participants take part in these activities.
The orientation is usually a group activity. The assessment can be a group or one-on-one
activity. Participants are assigned to other JOBS program components as determined by
the case manager and client after completing an assessment and an employability plan.
Most respondents were assigned to either an education, job search, life skills training, job
 skills training, or job readiness component. Of the 232 respondents, few were assigned to
job development/job placement (4); on-the-job training (1 1); work supplementation (4);
community work experience (10); and/or other state education components (9). The
critical first stage activities, orientation, assessment and employability planning, were
rated fairly high by most participants, as shown in table 1. All other JOBS program
 activities, except job search, were also rated high.




                                              5

               Table 1: Respondents’ Grading of JOBS Program Activities
       11 ,.                    .,.:..,:..
                                    : ,:.::
                       .,.:.:.,......   :........ .......,.:..,:..
                                                    ..                  .. .,’:..:,,,., . ...,:
                                                                 . ... ......




         Orientation           31%         36%        21%        10%        2%             232

         Assessment            29%         37%        19%        10%        5%             198

         Employability         35%         32%        18%        9%         6%             189
         Plan
         Education             68%         22%        6%         2%         2%              S6
         Job Search            16%         33%        18%        14%        19%             64
         Life Skills           72%         14%        7%         6%         1%              35
         Job Skills            39%         21%        28%        8%         4%              25
         Job Readiness         68%         13%        14%        5%                         22


Orientation -- During the orientation sessions JOBS participants are informed about a
variety of program activities (e. g., education, training, job readiness, job search) and
support services (e. g., child care, transportation).

Ninety-eight percent of the participants surveyed said they were given general information
about the JOBS program. A majority (67 percent) of participants were satisfied with the
explanation of these services, grading it A or B. Further, 69 percent of the respondents
said the orientation activities encouraged and motivated them to participate in the
program.

Assessment -- Sixty-six percent of the respondents gmded the assessment of their
educational background, employment history, interests, and service needs as either an A
or a B.

Employability Plan -- Generally, the employability plan includes information about JOBS
participants employment, training, and education goals and support services an individual
needs to participate in JOBS employment, education or training activities. Most
respondents indicated their employability plan contained the following: 1) current
education level (93 percent); 2) necessary support services (81 percent); 3) future
education goals (85 percent); 4) employment goals (80 percent); and, 5) training needs
(70 percent). Thirty-four out of 189 respondents said their employability plan included
information about their personal interests. Eleven participants did not remember or did
not know what was included in their employability plan.

Sixty-seven percent of 189 respondents graded their employability plan A or B. They
generally agreed with the plan’s contents and felt the plan could be changed if they
wished.


                                                       6
 Education -- Participants could receive high school course work, GED course work,
 vocational or technical training, junior college course-work, and college or university
 course- work.

 Among the 86 participants receiving and rating education services, high satisfaction was
 evident, with 90 percent grading the service A or B. Fifteen respondents were especially
 satisfied with their education classes and the degree they received as a result of the JOBS
 program.

 Job Search -- Participants were more critical of job search. Of the 64 participants that
 took part in this activity, only 49 percent graded it an A or a B.

 A majority of JOBS participants            who received support services gave the services high
 marks.

 Participants in the JOBS program often brought with them multiple problems. For
 example, in addition to needing child care and transportation services, some respondents
 said they also needed sick child care and assistance with finding a house because many
 landlords did not want to rent to welfare recipients. One out of every three JOBS
 participants in our sample had two or more problems that impacted on their participation
 in the program. Sixty percent of them obtained services that assisted with solving their
 problems. As shown in table 2, participants receiving support services indicated their
 general satisfaction by giving most of the services fairly high grades.




Child Care                                 47%        27%%         11%    3%        11%           98

Transportation to JOBS Component           40%         31%         20%    2%         7%           116

Transportation (child care)                39%         19%         36%               6%           19

Transitional Medical Services              51%          1%                24%       24%           13
 Counseling                                75%         25%                                        12
E*                                 I 76% I 16% I 8% I                            I          I     7.7   ~
                    * Otherserwcesreceivedincludedental, substance abuse treatment, supphes for
                    school, tools for work, license fees, and clothing.

     Child Care -- Seventy-four percent of the 98 respondents who reported receiving child
     care graded the service A or B. Respondents’ feelings can be summed up as “I was
     afraid I’d get stuck with something poor, yet I had a great, high quality care center for
     my child, ” and “me agency] provided on-site [child care] for those in class. We COUH
     go in and ou~ and check on the kids... it was very good. ”



                                                         7
Transportation -- Transportation service costs were usually covered through vouchers or
reimbursements to participants. One State, in addition to vouchers and reimbursements,
provided the transportation directly. Most JOBS participants gave high grades to
transportation services received. Seventy-one percent of the participants graded the
transportation for employment service A or B, while 58 percent graded transportation to
child care A or B.

Transitional Services -- Eleven out of 13 respondents receiving transitional medical
services graded them A or B. Six individuals received transitional child care, three out of
the six graded the service A.


NEVERTHELESS, A SIGNIFICANT NUMBER OF RESPONDENTS EXPERIENCED
PROBLEMS AND/OR VOICED COMPLAINTS THAT MERIT THE ATTENTION OF
PROGRAM MANAGERS.

Insufficient Information -- While almost all participants said they were informed about
the overall JOBS program, some said they were not told about, or received insufficient
explanations or information on, the availability of specific services.

When asked what specific services they were told about, a significant number of
participants said they were not told or do not remember being told about the availability of
some JOBS program activities and support services, as shown in table 3. Many of these
services are essential to gain and/or maintain employment or successfully complete a
JOBS program activity.

  Table 3: Percent of Respondents Who Said They Were Not Told About Required
                          Activities And Support Services




        Education: (e.g., education designed to               22%           176
        prepare for high school equivalency certificate
        and Basic Education


         Education in English Proficiency
                    67%           72
                                                          I         1   I
         Job Skills Training
                             I   22%       I   166

        Job Readiness
                                        32%           148

         Child Care
                                          11%           185

         Transportation
                                  ~   16%       I   178

         Transitional Child Care
                         I   46%       I   101

         Transitional Medical Services
                   I   42%       I   114




                                                     8

The services respondents were not told about most often included: (1) education in English
proficiency (67 percent); (2) transitional child care (46 percent); (3) transitional medical
services (42 percent); and (4) job readiness (32 percent). Additionally, 11 percent
reported they were not told about, or did not remember being told about, the availability
of child care, and 16 percent said the same regarding transportation services. This might
explain why some participants reported they did not receive needed services. The
following statement sums up the attitudes of those participants who did not receive
sufficient information about the JOBS program: “The agency did not explain the program
sujiciendy. Some services I asked about, I did not know was [were] available. They
would not discuss educa~ion or training. “

Problems with insufficient information were also evident in the low ratings which some
respondents gave to their JOBS orientation. Of 232 respondents, 33 said they received
insufficient information. Thirteen respondents felt the information given was not clear or
on their level. The following is a composite of these respondents’ comments: “me JOBS
case managers] did not explain what they would do to help you. The workers did not
erplain well. /7%e JOBS case managers] said they wouki help, but explained the program
in a sophisticated way using sophisticated words. “ Also, a few pam”cipants reported the
stafs explaruxion of the program and i~s services did not ma~ch their own needs.

Lack of SUDDOt-t Services - Almost half, 98 of 208, respondents reported there were
certain services they needed but did not receive. When specifically asked which services
were needed but not provided they indicated: child-care (47 of 98); transportation for
employment (42 of 98); and transportation to the child-care facility (11 of 98). Other
unmet service needs mentioned include: car repair (15 of 98); counseling (13 of 98);
transitional child care (8 of 98); and transitional medical treatment (7 of 98).

As table 4 shows, participants gave various reasons for not receiving services they needed.
Forty-nine and 40 percent, respectively, believed they did not receive child care or
transportation services because the State did not provide the service. In one State,
participants reported public transportation was not always available at the time needed to
attend the JOBS activity. Another 20 and 27 percent reported they did not receive child
care or transportation services because they were not included in the plan. Also,
participants believed they did not receive car repair (59 percent), counseling (25 percent)
or transportation to the child care facility (46 percent) because it was not included in their
JOBS employability plan.




                                               9

          Table 4: Reasons Respondents Gave For Not Receiving Needed Services




The need for support services could surface at all stages of program participation . Some
support services problems were expressed by respondents during comments about their
employability plans. Seventeen participants said they received inadequate information
about their plan, or said that services listed in the plan were not delivered as promised due
to insufficient resources. Fourteen participants felt pressured by the JOBS staff to set
different goals from what they preferred. For example, they were required to seek
employment at their present skill level rather than participate in education or training.

Fifty-two percent of the respondents who said they did not receive services did not know
they could, or believed they could not, change their employability plan to solve new
problems or to change their education and employment goals. When we asked
respondents if they helped to develop their employ abiMy plan, 43 out of 194 respondents
reported they did @ help. Six participants either did not have an employability plan or
did not remember devising a plan.

Eight respondents needed but did not receive transitional child care services. Five of the
eight needed both transitional child care and medical services. Seven were individuals
who completed the JOBS program. They reported they did not receive the service
primarily because it was not included in the plan. However, seven indicated they were
not told that the services were available.

Deficient Case Mana~er Services and Attitudes - Thirty-one percent of respondents
thought the agency should provide better screening/assessments, encouragement, case
management, and follow-up of JOBS participants. Thirty-four percent of 198 respondents


                                              10
were not fully satisfkd with the assessment process, grading it C, D or F. Of these, 37
reported their assessment was inadequate and did not reflect their education, employment
skills, experiences, and interests. Eight respondents indicated that a personal interview
was ~t even conducted; another six respondents said the activity was merely a paperwork
process. Twenty participants felt their assessment interview was incomplete, either
excluding their full work and personal history or their long-term education and
employment goals. Five respondents felt stigmatized by the assessment process.
Twenty-one respondents reported they either felt coerced or humiliated or felt that the case
managers were not helpful during their orientation.

In some cases, participants criticized what they believed were condescending attitudes and
the inability of case managers and staff to provide more support. However, they
recognized that there were staff shortages, and that staff needed more training. Of the
232 participants in the sample, 66 individuals reported they felt like dropping out of the
“program at some point, and 15 out of the 66 attributed this feeling to the case manager’s
condescending attitude. The following is a composite of the attitudes expressed by
discouraged participants: “me worker . . . was not supportive... made me feel inferior and
treated me like I was stupid. i%e worker acted as though she did not want me to anend
school. “

Additionally, some participants expected more support than they received from the agency
and its staff in identifying available jobs and in being prepared for interviews. For
example, a few participants thought the agency should develop jobs, and the case manager
should coach them for job interviews, (i. e., tell them what skills are necessary before
sending them on interviews so they could better prepare and converse on the job skills
needed).

Understandin~ of Penalties - While the majority of participants knew about penalties for
non-participation or non-compliance with program requirements, some did not understand.
A majority of the participants surveyed knew about the penalties for not participating in
the JOBS program or not complying with program requirements. Participants knew they
could lose AFDC benefits for one of the following reasons: (1) refusing to participate in
the JOBS program without a good reason (87 percent); (2) rtxeiving income or wages
from JOBS-related employment -- e.g., on-the-job training (79 percent); and (3) not
following the terms of their employability plan (83 percent). Twenty-one percent said
they did not know they could loose benefits by refusing to participate in the program or
due to earnings obtained from participating in a JOBS activity, e.g., on-the-job training.

Twenty-two respondents reported losing benefits while participating in the program.
Twelve reported their AFDC and/or Food Stamps benefits were reduced after receiving
student loan funds. Participants felt they should not have been penalized when they
received student loan or grant funds targeted for school or training needs.

Disenchanted Minoritv - A minority (30 respondents) experienced multiple problems and
gave consistently low ratings to program activities and support services. This minority
included mandatory and volunteer participants, JOBS program completers, currently active


                                             11
participants and dropouts. Twenty-two of them were mandatory participants who said
they participated in the JOBS program only because they were required to do so as a
condition of eligibility for AFDC and Food Stamp benefits. They differed from others in
the study sample in that they expressed dissatisfaction with four or more activities/services
of the JOBS program. Nineteen rated the JOBS program poor or very poor and believed
the program would not help them get off welfare. Twenty-two needed services they did
not receive. Seventeen felt like dropping out of the program, and 7 did drop out. Some
characteristics of these dissatisfied individuals were:

 �     33      median Age.
 �     14      were single, never married; 6 were married; 5 were separated; 4 were
               divorced; and 1 was unknown.
 b     12      had a high school diploma; 8 had less than 12 years of schooling; 4 and 5
               respectively had some vocational and college education; and 1 had an
               unknown amount of education.
 b     15      were receiving AFDC assistance for 36 of the previous 60 months.
 F     27      had prior work experience.
 b      7      were working and were off welfare.
 �      6      were working and were still on welfare.


EIGHTY-SIX PERCENT OF THE RESPONDENTS SH~D                          SPECIFIC
SUGGESTIONS FOR IMPROVING THE JOBS PROGRAM.

Eighty-six percent of the 232 respondents suggested the program needed improvements to
ensure its success. Their suggestions fell into three broad categories: (1) achieving self-
sufficiency, (2) improving support services, and (3) strengthening case manager
performance.

Achievinz Self Sufficiency - In order to become self-sufficient, 25 percent of the
participants believed more emphasis should be placed on education and training in order to
prepare them for a career which would increase their earning capacity above the
minimum-wage level. They felt low (minimum wage) wages would force them to remain
on welfare or to return to the public assistance rolls because their wages would not be
sufficient to replace lost medical, AFDC, and/or Food Stamp benefits.

Some participants suggested two services which, if provided, would motivate and assist
participants to become independent of welfare: (1) allow participants a trial work period
and let them receive their first pay check before terminating benefits. The AFDC benefits
obtained during this period could be used to meet employment start-up costs (e.g.,
transportation and clothes); and, (2) provide transitional services (child care, medical) to
participants whose AFDC benefits will be terminated due to earned income. Participants
believed these services would provide a smooth transition off welfare, or back on welfare
if the employment was unsuccessful.




                                               12
Immovin~ SuDDort Services - Thirty-five percent of the participants recommended
improving key support services such as child care, transportation, education, and
counseling. This would include assisting participants in finding quality, affordable child
care and transportation services.

Strentiheninz Case Mana~er Performance - Eleven percent of the participants suggested
that the agency and staff improve the process for explaining JOBS program services.
Thirty-five percent of the participants suggested that case managers should do a better job
of explaining the JOBS program activities and support services, assessing clients needs,
and should be more empathetic and supportive and not condescending.




                                             13
American Public Welfare Association, “W MEMO” Vol. 1 Nos 8-9, November 1, 1989.

Center for Law and Social Policy, “Family Matters”, Volume 1 No. 3, Spring 1989.

Dixon, Wilfred J. and Massey, Frank J., Jr., Introduction to Statistical Analvsis, Third
Edition, New York, San Francisco, St. Louis, Toranto, London and Sidney: McGraw-Hill
Book Company, 1969.

Gueron, Judith M., Reforming Welfare With Work, New York: Manpower Demonstration
Research Cooperation, 1987.

National Puerto Rican Coalition, Inc., “Implementing The Family Support Act Perspectives
of Puerto Rican Clients, ” Handout No. 1, The Urban Institute Welfare Reform Workshop,
19900

Sar A Levitan, Progra ms in Aid of the Poor, Sixth Edition, Baltimore and London: The Johns
Hopkins University Press, 1990.

Social Research Center Calvin College, Attitudes Toward the MOST Promzim: A Survev of
MOST Program Sanctionees for the Kent Countv Department of Social Services Grand
RaDids. Michiz an, March 1987.

U. S. Department of Health and Human Services, Office of Inspector General, Working
Toward JOBS, June 1990.

U.S. Department of Labor, Bureau of Labor Statistics, Employment and Earninm, Volume
38 No. 2, February 1991,

U.S. General Accounting Office, Work And Welfare: Analysis of AFDC Emdoyment
Pro~ rams in Four !jtate$, GAO/HRD-88-33FS, January 1988.

U. S. General Accounting Office, Work and Welfare: Current AFDC Work Pro~rams and
Irnrdications for Federal Policy, GAO/HRD-87-34, January 1987.

Quiroz, Julia Teresa and Tosca, Regina, On My Own: Mexican American Women Self­
sufficiencv and the Family Sup-mrt Act, National Council of Id&a, 1990.
                           APPENDIX                   A


                    PROFILE     OF SURVEY RESPONDENTS            *
                               (# Respondents = 232)
Basic Demographics

  . 32 median age of survey participants.

  . 33 median age of mandatory participants.

  . 30 median age of volunteer participants.

  �   91 percent were females.

  . 52 percent were African-Americans; 26 percent were Whites; 14 percent were

          Hispanics; two percent were Asians and Native Americans; and seven percent
          were unknown.
  . 46 percent were   Single,
                          never
                              rnafi~;
                                   29              percent were separated or divorced;

          14 percent were married; three percent were widowed; and nine percent were
          unknown.

  . 70 percent had one or two children.

  . 30 percent had from three to six children.

  . 22 percent of the children were age 3 and under.

  .    1 percent were teenage parents at the time of the survey.

  . 81 percent were mandatory participants.

Education

  . 35 percent had a high school diploma or general equivalency degree.

  �   35 percent had less than a high school degree.

  . 11 percent had some vocational training or college.

  . 12 percent had completed a college or university degree.

  .    7 percent had an unknown amount of education.

Work History

  . 84 percent had a work history.

  .    8 percent did not have a work history.

  .    8 percent had an unknown work history.

Welfare History

  . 83 percent were receiving AFDC

  �    7 percent were reeeiving Unemployed Parents assistance

  . 10 percent were former recipients whose benefits were terminated.

  .    8 percent were recipients whose AFDC benefits were reduced (sanction status).

  . 60 percent reeeived AFDC for 36 of the preceding 60 months.

  . 61 percent were custodial parents above the age of 24.

  . 10 percent were custodial parents under the age of 24 who had not completed

          high school and at the time of application were not enrolled in high school

          and had little or no work experience.

  .    1 percent had a youngest child within 2 years of being ineligible for AFDC

          because of age.

  —                                            -.               .. . .       .   . .

* Demographic data was obtained from case files and provided by the local weltare

offices.



                                         A-1
                             APPENDIX                   B

The following stories illustrate participants’ experiences in the JOBS program. The
information was obtained during face to face interviews with these individuals.
Pseudonyms are used to protect the confidentiality    of the individuals.




                                           B-1
                                   The Monday     Family




Mrs. Monday   is a 32 years old, single (never married) African-American who has two
sons, ages 4 and 9. She is a high school graduate. The family received Aid to Families
with Dependent Children between 1985 and 1990.

Mrs. Monday was required to participate in the JOBS program. However, before the
agency approached her about participating in the program, she volunteered, after hearing
about it from a friend. She believed the program could help her get a job and off of
welfare. She said “this is a dream. ” I have been “a long time waiting”.

Overall, Mrs. Monday was satisfied with the assessment of her education and skills and
employability plan. However, she would like to have received more education to improve
her reading skills. Her long range goal is to obtain a college/university degree. She
participated in on-the-job training at the Department of Social Services. There were times
she felt like dropping out of the program because of the attitudes of some of the agency
staff. She “felt unwelcome”, and her filing job, was not rewarding. She said all she did
for three weeks was file papers.

She felt her JOBS case tnanager was very supportive and encouraged her to complete the
program. She was pleased with the services she received (child care, transportation,
counseling, transitional child care and transitional medical services). She completed the
JOBS program and obtained a job providing housekeeping services for welfare recipients
in need of such services.    She said she got what she wanted out of the program a “job”
and “to get off welfare”. However, the most important benefit she received from
participating in the program was “my self esteem -- my kids love me working and they are
proud of me.”

Mrs. Monday believes the program is very good, and it could help AFDC recipients get off
welfare. She would recommend the progratn to other recipients. She suggested that the
agency provide more counseling. Recipients need to know that there is better life than
welfare. She suggested encouraging recipients to get off welfare by helping them to find
employment, providing medical benefits, and continuing child care when AFDC benefits
are terminated due to earned income.


                                            B-2
                                   The Thursday Fatnily




Mrs. Thursday is a 26 year old divorced, Mexican-American who receives AFDC

assistance for herself and two children (daughter age 4 and son age 2). She is a high

school graduate.


Mrs. Thursday began receiving AFDC in April 1989. She volunteered to participate in the

JOBS program to obtain assistance with finding employment and child care payments.

During the orientation, she was told about all the services JOBS would provide, except

transitional medical services.


She was very satisfied with all aspects of the program except Job Search. Initially    she

thought the JOBS program would provide a job, and was disappointed when it did         not. As

a result, she thought Job Search was not helpful. She was without child care for a     short

time during her participation in JOBS, (the state’s “child care funds ran out”).

Nevertheless, she was very satisfied with the child care and transportation services   she did

receive.


Mrs. Thursday felt her case manager was supportive and encouraged her to complete the

program and get off welfare. She is working (clerical worker for a taxi company). Her

wages are not sufficient to impact her AFDC benefits. She expects an increase in her

wages and believes her AFDC benefits will either be terminated or reduced. She believes

the JOBS program is very good, could help recipients get off welfare, and said she would

recommend it to others. She believes the program could be improved if the agency

informed clients they can volunteer for the program and that services, especially child care

and transportation, are provided to help individuals complete the program). Also, the

agency can do a better job of informing clients that they do not develop jobs nor do they

provide a lists of available jobs.





                                            B-3
                                    The Stamp Family




                            (3

                          (ii? &
Mrs. Bell Stamp is a 34-year-old white female, She lives with her two daughters (Laura,
age 15, and Doris, age 8), two sons (Matthew, age 11, and James, age 9) and her disabled
brother who has multiple sclerosis. She is separated from her husband. Mrs. Stamp is a
high-school graduate and has only worked part time.

Mrs. Stamp participated in the JOBS program only because she was required to as a
condition of eligibility for AFDC benefits. There were times that she felt like dropping
out of the progratn, but did not because she feared losing AFDC benefits.     Her
participation in the JOBS program was impacted by multiple problems. In addition to
caring for her four children alone, she cared for her disabled brother, was abused by her
husband and was evicted from her home and had much difficulty finding another house.

Mrs. Stamp wanted child care provider training but was told she had to participate in job
search. She said she did not want to participate in job search. She was interested in
becoming a child care provider because she could do this in her home and still be readily
available to her children and her brother. Currently, Mrs. Stamp provides child care
services for two children. She does not know if this meets the agency’s work requirement.
However, her goal is to expand her day care operations and to get off welfare.

Mrs . Stamp reported that overall the program appears to be good but she gave it low
marks because the program did not serve her needs and the workers were condescending.
“I felt like a little kid in a class room. ”

She said the program could be improved by giving recipients choices and by providing
services and counseling that could help participants resolve personal problems that impact
on participation in the program. For example, case managers should be more supportive of
clients with problems, and help clients find houses. She also said recipients might not
want to obtain employment that would result in terminating their AFDC benefits because
they are afraid of losing medical benefits.




                                            B-4
